<html>
<title> - [H.A.S.C. No. 112-1]COMMITTEE ORGANIZATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                                     

                          [H.A.S.C. No. 112-1]
 
                         COMMITTEE ORGANIZATION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 20, 2011

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
64-899                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d6a755a796f696e727f766a3479757734">[email&#160;protected]</a>  

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     KATHY CASTOR, Florida
BOBBY SCHILLING, Illinois            BETTY SUTTON, Ohio
JON RUNYAN, New Jersey               COLLEEN HANABUSA, Hawaii
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
            Zach Steacy, Director of Legislative Operations
                         COMMITTEE ORGANIZATION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                        Washington, DC, Thursday, January 20, 2011.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.
    The Chairman. The committee will come to order. We have 
four items of official business to consider today: adoption of 
the committee rules, approval of the committee's oversight 
plan, approval of the committee's security procedures, and the 
appointment of the committee staff.
    Good morning. First let me welcome all members, returning 
and new, to the House Armed Services Committee. We have a full 
schedule today, so I will only make brief comments at this 
point.
    First I want to reiterate the pledge I made when I was 
named chairman, and that is to continue this committee's long-
standing, bipartisan tradition in the furtherance of a strong 
national defense. The security challenges facing our Nation 
require that we find solutions and not merely prolonged 
political debate.
    Second, our armed services are being tested in the field on 
a daily basis. They are completing their mission. We must as 
well.
    As my good friend, Ike Skelton, my predecessor as chairman, 
would remind us, there is a plaque in front of this rostrum 
which states what our job is. It quotes the Constitution, 
Article I, Section 8: ``The Congress shall have the power to 
raise and support Armies, to provide and maintain a Navy, to 
make rules for the Government and Regulation of the land and 
naval Forces.''
    This is a heavy responsibility. It is particularly weighty 
in a time of war and demands that this committee also operate 
on a war footing. It is the job of this committee to ensure 
that our men and women in uniform are properly trained, 
resourced, equipped, and supported so that they can fulfill 
their difficult mission and return as safely as possible to 
their family and loved ones.
    Lastly, I know it will come as no surprise to most of you, 
but the committee will become very busy in the weeks and months 
ahead. While there is much to do, we can assure we are 
effective by focusing on a set of strategic priorities. My 
priorities include: to continue our committee's strong 
tradition of providing our warfighters and their families with 
the resources and support they need; to conduct vigilant 
oversight to ensure that our troops that are deployed in 
Afghanistan, Iraq, and around the world have the equipment, 
resources, authorities, training, and the time they need to 
successfully complete their missions and return home; and 
finally, to invest in the capabilities and force structure 
needed to protect the United States from tomorrow's threats 
while maintaining fiscal responsibility, accountability, and 
transparency from the Department of Defense [DOD].
    I believe that focusing on these priorities will allow us 
to put together a strong national defense authorization bill 
and provide the oversight that the Nation demands of us. I will 
be informed by your views, too, and will both encourage and 
expect your participation. We have a lot to do, and I welcome 
any and all member ideas and participation on the many issues 
we need to cover.
    Before I introduce our new slate of members, I want to take 
a moment to recognize a special member of this committee who is 
not here today. Congresswoman Giffords is a beloved member of 
our committee, and I know all members of the committee will 
join with me in praying for her recovery and her return to the 
work that means so much to her.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I want to echo those 
sentiments, and I appreciate your kind words for Ms. Giffords. 
All of us are keeping her in our thoughts and prayers, and her 
family as well.
    Gabby is just a critical part of this Congress and a 
critical part of this committee. She represents Fort Huachuca 
and Davis-Monthan Air Force Base, and nobody could have a more 
tireless and passionate advocate for them than they do in 
Gabby. She really cares about her district and cares about the 
people in the military who serve there, but, beyond that, cares 
deeply about the military, has travelled all over the world 
visiting our military, and is just about as strong an advocate 
as they could have.
    She is just a critical member of this committee, and we are 
absolutely confident that she is going to be back and at full 
strength, I think, before anybody would have expected. So I 
appreciate those kind words, and we look forward to having her 
back on the committee just as soon as is humanly possible.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. I really appreciate that. I know you were 
down there visiting her, and I know that you are very close to 
her, and your family. You know, she came up to me during the 
lame duck session and congratulated me and said she wanted us 
to come to Fort Huachuca. I told her about the CODEL 
[congressional delegation] that we are taking next week to 
visit yours and my district. It gives us a chance to get to 
know each other a little bit better and something that I am 
really looking forward to. And I hope that very, very soon we 
can go with her to Fort Huachuca.
    It is amazing how she is doing. We are blessed to have her 
on the committee, and I am glad she has had the blessings of 
recovery that she has had.
    At this time, let me introduce the very large and 
impressive new team that is joining us on our committee. I will 
introduce the Republicans, and then, Adam, if you will 
introduce the Democrats.
    Our first new member is Scott Rigell, representing the 
Second District of Virginia. Scott's coastal district--right 
down here--Scott's coastal district is home to Naval Station 
Norfolk and Langley Air Force Base. Scott is a business owner 
and a second-generation Marine, serving 6 years in the Marine 
Corps Reserve.
    Sitting next to him, from the 20th District of New York, 
the vast Hudson Valley, we welcome Chris Gibson. Chris has 
served 24 years in the Army, including four combat tours in 
Iraq, and most recently served in Haiti during our humanitarian 
relief effort. An author, he has also served as a professor of 
American politics at West Point.
    From the Fourth District of Missouri we welcome Vicky 
Hartzler. Vicky's district includes two large military 
installations, Fort Leonard Wood and Whiteman Air Force Base, 
one of the homes of the B-2 bomber that was built in Palmdale, 
California. Also a business owner, Vicky will bring her years 
of experience as both a teacher and as a State representative 
to the committee.
    Next we have Dr. Joe Heck. He joins us from the Third 
District of Nevada. Dr. Heck has more than 30 years in public 
service as a physician and Army reservist. He has been called 
to Active Duty three times, including a deployment to Iraq in 
support of Operation Iraqi Freedom. Joe's district includes 
much of the Las Vegas suburbs.
    And then from the Seventh District of Illinois, Bobby 
Schilling. Bobby runs a successful family business alongside 
his wife Christie as owner and operator of an Italian 
restaurant. Bobby Schilling. That is a good Italian name. 
Together they have 10 children. We look forward to Bobby 
bringing his expertise as a business owner to the committee.
    From the Third District of New Jersey, Jon Runyan. He is 
sitting down. Jon represents a large military district 
including McGuire Air Force Base, Fort Dix and the Lakehurst 
Naval Station. Prior to joining Congress, Jon played 14 seasons 
in the NFL as an offensive tackle, helping lead the Eagles to a 
Super Bowl appearance in 2004. We are pleased to welcome him to 
our team here.
    From the Eighth District of Georgia, we welcome Austin 
Scott. Austin's district includes Warner Robins Air Force base, 
employing many of his constituents. Austin has a career of 
public service at the State level, having served 14 years in 
the Georgia General Assembly. We are excited to have him bring 
his expertise to the committee.
    From the Second District of Arkansas, we welcome Tim 
Griffin. Tim is a JAG [Judge Advocate General] officer, and his 
many years in public service include 14 years in the Army 
Reserve. In 2006, Tim served as an Army JAG in Mosul, Iraq. He 
is the founder of a law firm in his hometown of Little Rock, 
Arkansas. His legal experience and service will prove to be a 
valuable addition to this committee.
    From the Fourth District of Mississippi, Steven Palazzo. 
Steven is a native of Gulfport, has served in the Marine Corps 
Reserve and the National Guard, including tours in the Persian 
Gulf War in Saudi Arabia and Kuwait. In addition to his 
military service, Steven has a career of public service at the 
State level in the Mississippi State Legislature. Steven's Gulf 
Coast district is home to one of the largest shipyards in the 
country, employing thousands of his constituents, and is also 
home to Keesler Air Force Base.
    Next, Allen West joins us from the 22nd District of Florida 
with a distinguished career in the U.S. Army, serving several 
combat tours, including in Operation Desert Storm, Operation 
Iraqi Freedom, and in Afghanistan. We thank him for his 
military service and look forward to his contributions to our 
committee.
    Martha Roby, way down there. Martha Roby joins us from the 
Second District of Alabama. Martha's district is home to two 
large military installations, Maxwell Gunter Air Force Base and 
Fort Rucker, the Army's primary air-training base. Prior to 
this Congress, Martha served on the Montgomery City Council. We 
are delighted to have her join the committee.
    Next is Alabama's Fifth District Representative, Mo Brooks. 
Mo has led a distinguished public service career in both the 
Alabama House of Representatives and as a prosecutor. Mo's 
district is the home of Redstone Arsenal in Huntsville and is 
one of the Nation's foremost missile development centers. We 
welcome Mo to the committee.
    And then I would like to introduce Todd Young from the 
Ninth District of Indiana. Todd's career includes service in 
both the Navy and the Marine Corps, and a turn as a deputy 
prosecutor for Orange County, Indiana. We welcome Todd, thank 
him for his military service, and look forward to his 
congressional attributes.
    We are fortunate to have this talented group join our team 
here at the committee.
    Let me now recognize Adam Smith, our ranking member, my 
good friend from Washington.
    Mr. Smith. Thank you, Mr. Chairman.
    Our list of new members is regrettably shorter, as you 
might imagine, but we will get to them in just a minute.
    I want to first of all congratulate you on becoming 
chairman in this committee. It is a very, very high honor. You 
can look at the walls around us at the people who have come 
before you and know how many great public servants have held 
that seat. It is a great honor for you, and I know you will do 
a great job. I have enjoyed working with you on this committee, 
and I look forward to continuing to do so. It is an honor to 
serve with you, and congratulations on your new position.
    The Chairman. Thank you.
    Mr. Smith. And I agree completely with your sentiments in 
your opening remarks. This is the best committee in Congress 
for those of you who don't know it yet. We get to do incredibly 
important work every single day for people who are absolutely 
worthy of our support. And as importantly, this is probably the 
most bipartisan committee in Congress. Without question, there 
will be things that we disagree on, but the overwhelming 
majority of the time, we will be working together to try to 
help the men and women who are serving in our Armed Forces; to 
help the bases in our district, bases across the country; to 
help their families; find any way we can to make sure that 
those brave men and women who are fighting to protect our 
country get absolutely every little piece of support that we 
can give them. And the best friendships and best relationships 
that I have in this place were built in this committee based on 
the issues that we have been able to work on together. And I 
know under your leadership, Buck, we will continue to do that.
    And you are right, it is particularly important at this 
time in our country. When we have our troops in Afghanistan and 
in Iraq fighting wars, putting their lives on the line every 
single day, the work of this committee becomes even more 
important. And I am incredibly proud of the work that a lot of 
us have done during the course of those struggles to make sure 
that our warfighters get what they need as quick as possible. 
Obviously, the MRAP [mine resistant ambush protected vehicle] 
example is the best example of where we saw a problem, and this 
committee and this Congress stepped up and tried to get that 
piece of equipment out to our troops as quickly as possible 
because we knew it would save lives. But there are countless 
other examples. In fact, I know Mr. Bartlett can give you a 
great long history of what this committee has done issue by 
issue, piece of equipment by piece of equipment, that has made 
a difference for our warfighters.
    So it is an honor to serve here. We have very, very 
important work to do, and I look forward to doing it with all 
of you in the weeks and months and years ahead.
    With that, I will introduce--we have five new members of 
the committee this cycle. Three of them are returning members. 
I will go through and introduce them. Our first new member is 
Tim Ryan. He is a returning member of the committee. He 
previously served during the 108th and 109th Congress. He 
represents the 17th District in Ohio. He will be serving on the 
Readiness and Emerging Threats Subcommittees. We look forward 
to his contributions.
    On a personal note, I have had the privilege of traveling 
with Mr. Ryan to Iraq. He is a great guy to travel with and 
certainly is never afraid to get out there and see our troops 
wherever they are.
    From the Second District of Maryland, we have Dutch 
Ruppersberger. Dutch's district is home to the National 
Security Agency, and if you know Dutch at all, you would know 
that, because I think that is the first thing he says: You 
know, the National Security Agency is in my district. He is 
very, very proud of that and works very, very hard on their 
behalf. He also has Fort Meade, Aberdeen Proving Grounds and 
other national security installations. He has served in public 
office for nearly 25 years. He will be serving on the Strategic 
Forces and Emerging Threats Subcommittees. As importantly, he 
is currently a member of the Intelligence Committee. A lot of 
those issues cross over. There are members on this committee 
who have served on both, including our most recent chairman Mr. 
Reyes. I think those issues are critical, and we need to do a 
better job of working together between DOD and the Intel 
[Intelligence] Community. Dutch will be a critical part of 
making that happen.
    Also returning to the committee is Kathy Castor from the 
11th District of Florida. She has a very special home down 
there with regard to our military. It is home to the Special 
Operations Command and the Central Command, which are both 
tenants at MacDill Air Force Base. She has previously served as 
a freshman on the committee during the 110th Congress. She will 
be serving on the Tactical Air and Land and Emerging Threats 
Subcommittees. We are all looking forward to getting down into 
her district very soon to visit those important military 
installations and to working with her.
    Now, for members who are new to the committee, we have 
Betty Sutton from the 13th District of Ohio. Betty has served 
in Congress, I think this is her third term. And she is a very, 
very strong voice on industrial base issues, which is basically 
to say to make sure that we maintain our manufacturing and 
technical strength as a country here in the U.S. so that we 
can--certainly there are economic implications of that, but 
there are very, very important national security implications 
of making sure that we make things here in America that can 
help protect our country. And she is very, very smart on those 
issues and very tenacious. I look forward to her service on the 
committee.
    And our last new member has big shoes to fill. Colleen 
Hanabusa from the First District of Ohio--sorry, we are off the 
script there, obviously from Hawaii--and takes Neil 
Abercrombie's spot. Neil. It is hard to imagine a more 
passionate member of this committee than the now current 
Governor of the State of Hawaii. Neil loved this committee, 
loves his district, and loves the military. And I know Colleen 
will do a great job moving in and taking his place. Her 
district is home to the Pacific Command, Pacific Fleet Marine 
Forces Command, Pacific Air Forces Command, and the Army 
Pacific Command. She will be serving on the Readiness and 
Oversight and Investigations Subcommittees.
    We are delighted to have her on our committee. As I am sure 
she will tell you, as Neil always used to tell us, don't be 
afraid to go to her district. I know politically the idea of 
going on a CODEL to Hawaii can get you into some trouble, but 
there is critically important stuff going on in that district, 
and to be an effective member of this committee, you need to 
know what is going on there. So if you want to go over there, 
stay in the worst hotel possible, tell everybody that you are 
suffering, that is fine. But get over there and see what they 
are doing in Hawaii, because it is critical to our national 
security.
    Additionally, we have one other member who is not new to 
the committee, but has now been installed as permanent member 
of the committee, and that is Mr. Hank Johnson from Georgia. We 
are very happy to have him back as a full and permanent member 
of the Armed Services Committee.
    And with that, I again thank you, Mr. Chairman. I look 
forward to working with you on these critically important 
issues, and I yield back.
    The Chairman. Thank you, Adam.
    I join with Mr. Smith in welcoming all of the new members 
to our committee. I look forward to working with you and 
getting to know all of you better. Even if you do not stay long 
in Hawaii, it is a jumping-off place for everything that you go 
to get to Japan, Korea, China, which are all very, very 
important to this committee, and you generally have to stop 
going and coming. And there is a lot to see in Hawaii, too, 
besides the beach.
    I am confident that you all will enjoy your time served 
here. It will be rewarding and fulfilling. And I am really 
looking forward to getting to know Adam better. We kind of sat 
at opposite ends, so I never really have had the opportunity to 
get to know him, but we have had several conversations since 
the election, and I am really looking forward to working with 
you. All I have heard have been good things, so I think we are 
going to have a great time.
    Now, we just heard that the votes have been moved up to 
10:30. They are moving along very expeditiously over there. So 
we will try to do the same thing here.
    On to the business. Members should all have before you a 
copy of the Committee Resolution No. 1 concerning the committee 
rules for the 112th Congress.
    [The following information was submitted for the record.]

    [GRAPHIC] [TIFF OMITTED] T4899.001
    
    [GRAPHIC] [TIFF OMITTED] T4899.002
    
    [GRAPHIC] [TIFF OMITTED] T4899.003
    
    [GRAPHIC] [TIFF OMITTED] T4899.004
    
    [GRAPHIC] [TIFF OMITTED] T4899.005
    
    [GRAPHIC] [TIFF OMITTED] T4899.006
    
    [GRAPHIC] [TIFF OMITTED] T4899.007
    
    [GRAPHIC] [TIFF OMITTED] T4899.008
    
    [GRAPHIC] [TIFF OMITTED] T4899.009
    
    [GRAPHIC] [TIFF OMITTED] T4899.010
    
    [GRAPHIC] [TIFF OMITTED] T4899.011
    
    [GRAPHIC] [TIFF OMITTED] T4899.012
    
    [GRAPHIC] [TIFF OMITTED] T4899.013
    
    [GRAPHIC] [TIFF OMITTED] T4899.014
    
    The Chairman. The rules package was coordinated with Mr. 
Smith and subsequently provided all members' offices on Sunday, 
January 16th.
    Most of the changes to the committee rules are intended 
either to make our committee practice rules consistent or are 
intended to conform our rules to the House rules. There is also 
a handful of miscellaneous and technical changes.
    At this time I would like to ask our counsel Ms. McElroy to 
summarize the key differences between the rules of the last 
Congress and those set before us today in Committee Resolution 
No. 1. And if you want to read very quickly, that would be 
good.
    Ms. McElroy. Thank you, Mr. Chairman.
    There are a few proposed changes to the committee rules for 
the 111th Congress. First, the proposed rules include the 
following additions in order to conform with the new rules of 
the House. The committee rules must be made publicly available 
within 30 days of the election of the chairman; committee 
meetings must be publicly announced at least 3 days in advance; 
proposed legislation must be made publicly available at least 
24 hours prior to consideration; the committee must provide 
audio and video coverage of meetings and hearings; written 
witness statements must be made publicly available within 1 day 
of a witness' appearance; the text of amendments adopted by the 
committee must be made publicly available within 24 hours; the 
results of all roll call votes must be made publicly available 
within 48 hours; and the committee must submit four activity 
reports per Congress instead of one.
    Second, there is a proposed change to rule 9(c) regarding 
the number of staff from each member's personal office 
authorized to attend committee hearings that have been closed 
to the public for the protection of national security. Members 
may now designate one staff member plus an alternate, which may 
be a fellow, to attend such hearings. Previously, members were 
only authorized to designate one staffer. Despite this change, 
attendance at each committee hearing will still be limited to 
one staffer. This limitation is simply due to the size 
constraints of the committee spaces.
    Third, the proposed rules update the jurisdiction and names 
of certain subcommittees. The intent is to more closely align 
the subcommittees with DOD missions rather than military 
departments. There would be a Subcommittee on Tactical Air and 
Land Forces, formerly called Air and Land Forces, that includes 
Army, Air Force and Marine Corps acquisitions programs, except 
Marine Corps amphibious assault vehicle programs, strategic 
missiles, space, strategic lift, long-range strike, or IT 
[information technology] programs. The jurisdiction of the 
subcommittee would also include all tactical aviation programs 
independent of which military service owns the asset.
    There would also be a Subcommittee on Seapower and 
Projection Forces, formerly called Seapower and Expeditionary 
Forces. The subcommittee would oversee all Navy acquisition 
programs, other than strategic missile, space, IT or tactical 
aviation. Oversight would also include Marine Corps amphibious 
assault capabilities, seaborne unmanned aerial strike, and deep 
strike bombers and strategic lift programs, regardless of which 
military service owns the asset. The subcommittee's oversight 
of maritime programs would remain unchanged.
    The third proposed subcommittee modification is to the 
Subcommittee on Emerging Threats and Capabilities, which was 
formerly known as Terrorism, and Unconventional Threats and 
Capabilities. Jurisdiction of the subcommittee remains 
relatively unchanged, but the proposed rules have been 
clarified to more accurately reflect the subcommittee's 
oversight of all science and technology policy and programs, 
not simply the Defense Advanced Research Projects Agency.
    Lastly, while not reflected in the proposed committee rules 
package, it is worth noting that the new rules of the House 
clarify that the committee does have jurisdiction over 
cemeteries administered by the Department of Defense.
    The Chairman. Excellent. Thank you very much.
    At this time is there any discussion or are there any 
questions concerning the committee rules?
    If there is no further discussion, are there any amendments 
to the committee rules?
    If there are no amendments, the chair recognizes the 
gentleman from Texas Mr. Thornberry, the vice chair of the 
Armed Services Committee, for the purpose of offering a motion 
regarding Committee Resolution No. 1 concerning the committee 
rules of the 112th Congress.
    Mr. Thornberry. Mr. Chairman, I move to adopt Committee 
Resolution No. 1 concerning the committee rules for the 112th 
Congress.
    The Chairman. The clerk will read the resolution.
    Ms. Simler. Committee Resolution No. 1: Resolved, That the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee rules for the 112th Congress, which are 
stated in the copy before each member.
    The Chairman. The question now occurs on the motion of the 
gentleman from Texas Mr. Thornberry. As many as are in favor 
will say aye.
    Opposed, no.
    The ayes have it. Committee Resolution No. 1 is agreed to. 
Without objection, the motion to reconsider is laid upon the 
table. Without objection, committee staff are authorized to 
make technical and conforming changes to reflect the action of 
the committee in adopting the resolution.
    The next order of business is the adoption of the 
committee's oversight plan. House rules require all House 
committees to adopt an oversight plan no later than February 
15th. A copy of the proposed oversight plan for the 112th 
Congress was originally provided to members on Sunday, January 
16th. The members should all have before them a revised 
version, which was provided to members yesterday, in 
consultation with the minority.
    [The following information was submitted for the record.]

    [GRAPHIC] [TIFF OMITTED] T4899.015
    
    [GRAPHIC] [TIFF OMITTED] T4899.016
    
    [GRAPHIC] [TIFF OMITTED] T4899.017
    
    [GRAPHIC] [TIFF OMITTED] T4899.018
    
    [GRAPHIC] [TIFF OMITTED] T4899.019
    
    [GRAPHIC] [TIFF OMITTED] T4899.020
    
    [GRAPHIC] [TIFF OMITTED] T4899.021
    
    [GRAPHIC] [TIFF OMITTED] T4899.022
    
    [GRAPHIC] [TIFF OMITTED] T4899.023
    
    [GRAPHIC] [TIFF OMITTED] T4899.024
    
    [GRAPHIC] [TIFF OMITTED] T4899.025
    
    [GRAPHIC] [TIFF OMITTED] T4899.026
    
    [GRAPHIC] [TIFF OMITTED] T4899.027
    
    [GRAPHIC] [TIFF OMITTED] T4899.028
    
    [GRAPHIC] [TIFF OMITTED] T4899.029
    
    [GRAPHIC] [TIFF OMITTED] T4899.030
    
    [GRAPHIC] [TIFF OMITTED] T4899.031
    
    [GRAPHIC] [TIFF OMITTED] T4899.032
    
    [GRAPHIC] [TIFF OMITTED] T4899.033
    
    [GRAPHIC] [TIFF OMITTED] T4899.034
    
    [GRAPHIC] [TIFF OMITTED] T4899.035
    
    [GRAPHIC] [TIFF OMITTED] T4899.036
    
    [GRAPHIC] [TIFF OMITTED] T4899.037
    
    [GRAPHIC] [TIFF OMITTED] T4899.038
    
    [GRAPHIC] [TIFF OMITTED] T4899.039
    
    [GRAPHIC] [TIFF OMITTED] T4899.040
    
    The Chairman. The oversight plan includes a broad range of 
issues that the committee will be considering during the 112th 
Congress and has been coordinated with Mr. Smith and his staff.
    Is there discussion of the committee's oversight plan?
    If there is no further discussion, are there any amendments 
to the oversight plan?
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    I raised the issue of the importance of China and other 
issues related to the Pacific area, and I think this should be 
highlighted and included.
    The Chairman. Great point. That is on page 17 of the 
revised edition, and I apologize that we got that to you so 
late, but that is included.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman.
    The Chairman. I appreciate your pointing that out.
    If there is no further discussion, are there any amendments 
to the oversight plan?
    If there is no further discussion, no further amendments, 
the chair recognizes the gentleman from Texas Mr. Thornberry, 
vice chair of the Armed Services Committee, for the purpose of 
offering a motion regarding Committee Resolution No. 2 
concerning the committee oversight plan for the 112th Congress.
    Mr. Thornberry. Mr. Chairman, I move to adopt Committee 
Resolution No. 2 concerning the committee oversight plan for 
the 112th Congress.
    The Chairman. Thank you. The clerk will read the 
resolution.
    Ms. Simler. Committee Resolution No. 2: Resolved, That the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the committee oversight plan for the 112th Congress, a 
copy of which is before each member.
    The Chairman. The question now occurs on the motion of the 
gentleman from Texas Mr. Thornberry. So many as are in favor 
will say aye.
    Those opposed, no.
    The ayes have it. Committee Resolution No. 2 is agreed to. 
Without objection, the motion to reconsider is laid upon the 
table. Without objection, committee staff are authorized to 
make technical and conforming changes to reflect the action of 
the committee in adopting the resolution.
    The next order of business is the adoption of the 
committee's security procedures. The members have before them a 
copy of the proposed security procedures.
    [The following information was submitted for the record.]

    [GRAPHIC] [TIFF OMITTED] T4899.041
    
    [GRAPHIC] [TIFF OMITTED] T4899.042
    
    [GRAPHIC] [TIFF OMITTED] T4899.043
    
    [GRAPHIC] [TIFF OMITTED] T4899.044
    
    [GRAPHIC] [TIFF OMITTED] T4899.045
    
    [GRAPHIC] [TIFF OMITTED] T4899.046
    
    [GRAPHIC] [TIFF OMITTED] T4899.047
    
    [GRAPHIC] [TIFF OMITTED] T4899.048
    
    [GRAPHIC] [TIFF OMITTED] T4899.049
    
    The Chairman. The security procedures were coordinated with 
Mr. Smith and subsequently provided to all members' offices, 
along with the rules package and oversight plan, on Sunday, 
January 16th. At this time is there any discussion or are there 
any questions concerning the security procedures?
    If there is no further discussion, are there any amendments 
to the security procedures?
    If there are no amendments, the chair recognizes the 
gentleman from Texas Mr. Thornberry, vice chair of the HASC 
[House Armed Services Committee], for the purpose of offering a 
motion regarding Committee Resolution No. 3 concerning the 
security procedures for the 112th Congress.
    Mr. Thornberry. Mr. Chairman, I move to adopt Committee 
Resolution No. 3 concerning the security procedures for the 
112th Congress.
    The Chairman. Thank you. The clerk will read the 
resolution.
    Ms. Simler. Committee Resolution No. 3: Resolved, That the 
Committee on Armed Services, U.S. House of Representatives, 
adopt the [committee] security procedures for the 112th 
Congress, a copy of which is before each member.
    The Chairman. The question now occurs on the motion of the 
gentleman from Texas Mr. Thornberry. So many as are in favor 
will say aye.
    Those opposed, no.
    The ayes have it. Committee Resolution No. 3 is agreed to. 
Without objection, the motion to reconsider is laid upon the 
table. Without objection, committee staff are authorized to 
make technical and conforming changes to reflect the action of 
the committee in adopting the resolution.
    The final item of business for today is the committee 
staffing resolution. The members should have all before them 
Committee Resolution No. 4, which is the resolution appointing 
the committee staff for the 112th Congress as well as a copy of 
the list of committee staff.
    [The following information was submitted for the record.]

    [GRAPHIC] [TIFF OMITTED] T4899.050
    
    [GRAPHIC] [TIFF OMITTED] T4899.051
    
    The Chairman. As many of you know, our committee is unique 
in that the committee staff is integrated without distinction 
between majority and minority staffs. They are here to provide 
advice and counsel to all of you, Democratic and Republican 
members alike. Please feel free to avail yourself of their 
services. They are a talented group of professionals. I 
encourage you all to get to know them and to join us on CODELs 
at every opportunity, because that is where you really get to 
know each other.
    At this time is there any discussion of the resolution?
    Mr. Smith.
    Mr. Smith. Just two quick points. First of all, we have an 
outstanding staff. I agree with that, and I would concur with 
the chairman's remarks and urge all members, particularly new 
members, get to know the staff. You are going to rely on them 
enormously, and they do an amazing job for this committee.
    And then second, I just want to thank the chairman on all 
four of these for his cooperation between your staff and the 
minority staff in developing the rules and the oversight plan. 
I think it is a good start to our process. I appreciate you 
including us and appreciate the product that you came up with. 
Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    If there is no further discussion, the chair recognizes the 
gentleman from Texas Mr. Thornberry, vice chair of the HASC, 
for the purpose of offering a motion regarding Committee 
Resolution No. 4 concerning committee staffing for the 112th 
Congress.
    Mr. Thornberry. Mr. Chairman, I move to adopt Committee 
Resolution No. 4 concerning committee staffing for the 112th 
Congress.
    The Chairman. The clerk will read the resolution.
    Ms. Simler. Committee Resolution No. 4: Resolved, That the 
persons listed on the sheet before the members, and such other 
personnel as may be required by the committee within the limits 
and terms authorized under the Rules of the House of 
Representatives, are hereby appointed to the staff of the 
Committee on Armed Services, U.S. House of Representatives, for 
the 112th Congress, it being understood that according to the 
provisions of the law, the chairman will fix the basic salary 
per annum.
    The Chairman. Thank you.
    The question now occurs on the motion of the gentleman from 
Texas Mr. Thornberry. So many as are in favor will say aye.
    Those opposed, no.
    The ayes have it. Committee Resolution No. 4 is agreed to. 
Without objection, the motion to reconsider is laid upon the 
table. Without objection, committee staff are authorized to 
make technical and conforming changes to reflect the action of 
the committee in adopting the resolution.
    I thank you all for your cooperation. We are going to be 
able to get to the floor on time. You will be able to get to 
your retreat on time. I think we are off to a good start.
    Before we adjourn, though, let me raise a few 
administrative matters. As chairman I plan to strictly enforce 
the 5-minute rule. I think Mr. Skelton did a great job of that, 
and I want to follow on that rule. Once your time is up, I will 
call the time.
    I would also like to remind members that the full committee 
will hold a briefing on Tuesday, January 25th, at 10 a.m. in 
Rayburn, 2118, right here. Additionally the full committee will 
hold a hearing at 10 a.m. on Wednesday, January 26th, on the 
proposed Department of Defense budget reductions and 
efficiencies initiatives.
    Let me recognize Mr. Smith in case you have any closing 
comments or wish to add to the discussions.
    Mr. Smith. Just again, thank you. Look forward to working 
with you. Appreciate your leadership. We have a lot of good 
work to do, and I think we have a great committee to do it. 
Thank you, Mr. Chairman.
    The Chairman. Thank you very much. If there is no further 
business, the committee stands adjourned subject to the call of 
the chair.
    [Whereupon, at 10:35 a.m., the committee was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
